UNITED STATES SUPREME COURT
Lynn Z. Smith
294A Malvern Court East
Lakewood, New Jersey 08701
In re:

LYNN Z. SMITH,
On Appeal from: 3-18-cv-14955
Chapter 13 - Case #17-34862 (MBK)
Court of Appeals Docket # 19-1945

CERTIFICATION OF SERVICE
WRIT OF CERTIORARI
Lynn Smith, of full age, hereby certifies as follows:
1. I am the petitioner in this matter.
2. I submit this certification that on September 28, 2020 or the latest
September 29,2020 a postal stamped envelope with my Writ of Certiorari
will be forwarded to the parties named below.
Party
Andrea Dobin
McManimon Scotland & Baumann.
427 Riverview Plaza
Trenton, NJ 08611
DATED: September 28,2020
1

A

